NO. 20-942
Christopher L. Buie
Petitioner,
vs.
U.S. Department of Labor, Administrative Review Board
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court rules 33.2, 34.2, and the Court’s April 15, 2020 order, I
certify that the Petition for Rehearing contains 710 words and complies with the rules and order.
I declare that the foregoing is true and correct.
March 13,2021
Christopher L. Buie
1045 Park Ave Apt 6
Omaha, Ne 68105
(4020 345-1501
Jidao70@hotmail.com

